La
I

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 L ega 1 B picts contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-873

HERMAN MILLER, INC.,
Petitioner,
v
BLUMENTHAL DISTRIBUTING, INC.,
DBA OFFICE STAR,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BLUMENTHAL
DISTRIBUTING, INC.’S OPPOSITION TO HERMAN MILLER, INC.’S PETITION FOR A
WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 4891 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of February, 2021.
am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska z
i RENEE J. GOSS 9. ( bes Lise - Ch L, jp

My Comm, Exp. September 5, 2023
Affiant 40554

 

Notary Public
